 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




                 PUBLIC
                RELEASE


            BUREAU OF THE CENSUS
Unjustified Decennial Census Unemployment
  Compensation Claims Should Be Reduced
             Because Terminations for Cause
              Were Mostly Well Documented
          Inspection Report No. IPE-13212/September 2000




             Office of Inspections and Program Evaluations
September 29, 2000



MEMORANDUM FOR:                  Kenneth Prewitt
                                 Director
                                 Bureau of the Census


FROM:                            Johnnie E. Frazier

SUBJECT:                         Final Inspection Report: Unjustified Decennial Census
                                 Unemployment Compensation Claims Should be Reduced
                                 Because Terminations for Cause Were Mostly Well Documented
                                 (No. IPE-13212)

Decennial-related unemployment costs for the 1990 census were approximately $64 million. In
1994, the Office of Inspector General reported that potentially millions of dollars of these
unemployment costs could have been avoided had the separation and removal of problematic
temporary decennial census workers been adequately documented.1 It is important that
terminations for cause be well documented so that, should the individual later apply for
unemployment compensation, the Census Bureau is able to sustain a finding of ineligibility due
to poor performance or gross misconduct. In 1998, the OIG reviewed the policies and
procedures put in place to better manage unemployment compensation for the 2000 decennial
and reported that they appear adequate.2 However the OIG also suggested that additional
management attention was warranted in order to better comply with the policies and procedures.

This is our final report on how documentation was handled for temporary employees terminated
for cause during the 2000 Decennial Census. While conducting fieldwork in a number of local
census offices (LCOs) during May through August, the OIG found that the bureau was, in the
vast majority of cases, adequately documenting the termination of problematic employees.




        1
           Unemployment Compensation and the 2000 Decennial Census, Department of Commerce Office of
Inspector General, IRM-4593, September 1994.
        2
          Bureau of the Census: Columbia Dress Rehearsal Identifies Needed Improvements in Personnel
Administration, Department of Commerce Office of Inspector General, ATL-11050-8-0001, September 1998.
U.S. Department of Commerce                                                               Final Report IPE-13212
Office of Inspector General                                                                       September 2000

However, we did find some minor problems. For example, in 9 out of 56 cases at one LCO,
employees were listed as being terminated for “lack of work”3 when in fact they should have
been terminated for cause. They were not listed as terminated for cause because the appropriate
form had not been filled out at the time of their dismissal. And, in another 32 out of 322 cases at
eight other LCOs, the required form for documenting a termination for poor performance or
conduct problems was not filled out or was missing. As a result, these terminations for cause
were not adequately documented, and should the terminated employee make an application for
unemployment compensation, the Census Bureau would be unable to refute the claim.

The report includes comments from your written response to our August 29, 2000, draft report.
A copy of your complete response is included as an attachment to the report. We are pleased
that you and your staff have agreed with our recommendation. We thank your staff for the
assistance and courtesies extended to us during our inspection. If you have any questions about
our report, please contact me at (202) 482-4661, or Jill Gross, Assistant Inspector General for
Inspections and Program Evaluations, at (202) 482-2754.

INTRODUCTION

This report presents the results of our inspection of how well terminations for cause of decennial
temporary employees were documented. Inspections are special reviews that the OIG
undertakes to provide agency managers with information about operational issues. One of the
main goals of an inspection is to eliminate waste in federal government programs by
encouraging effective and efficient operations. By asking questions, identifying problems, and
suggesting solutions, the OIG hopes to help managers move quickly to address problems
identified during the inspection. Inspections may also highlight effective programs or
operations, particularly if they may be useful or adaptable for agency managers or program
operations elsewhere.

The inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency, and was performed under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
May 22, 1980, as amended.




        3
           Lack of work is the separation action most used by the Census Bureau for temporary decennial
employees. It means, simply, that the worker has completed his or her work assignment and that no additional
work is available to be assigned to the worker. Being released from employment due to lack of work is not an
adverse action and means that the worker is eligible to (1) be re-employed by the bureau at a later date should work
become available and (2) apply for and receive unemployment compensation, if all other requirements (see page 3)
are met.

                                                         2
U.S. Department of Commerce                                                         Final Report IPE-13212
Office of Inspector General                                                                 September 2000

OBJECTIVES, SCOPE, AND METHODOLOGY

The primary objective of our inspection was to determine whether LCO staff were appropriately
and completely filling out forms D-282 (Documentation of Performance and/or Conduct
Problems) and D-283 (Documentation of Termination for Performance and/or Conduct
Problems) for temporary decennial census employees. It is these forms that, if complete, should
be sufficient to document the reasons behind a termination for cause. In particular, we examined
whether (1) the forms had been used appropriately and filled out correctly and completely, and
(2) any other supporting documentation, such as an eyewitness statement, referenced on the
forms was present in the file.

To meet our objective, we visited 16 LCOs—Fairfax, VA; Annapolis, MD; Waldorf, MD; Seattle,
WA; Everett, WA; Los Angeles, CA; Compton, CA; Long Beach, CA; East Los
Angeles/Monterey Park, CA; Santa Ana, CA; Commerce, CA; Forest Park, GA; Aurora, CO;
Denver, CO; Newark, NJ; and, Queens Northwest, NY. We interviewed management and
administrative officials at the LCOs and reviewed personnel files. We reviewed forms D-282 and
D-283 and supporting documentation for all employees terminated in adverse actions.4 In
addition, we sampled the personnel files of temporary employees terminated before the end of
their appointment for other reasons, such as a resignation or lack of work, to ensure that a form
D-291 (Automated Decennial Administrative Management System [ADAMS] Update Form)
was on file for each employee and that the reasons for the separation were clearly stated on the
form.

BACKGROUND

To be eligible to collect unemployment benefits, an applicant must meet several requirements.
These requirements are fairly standard across the 50 states and include earning a minimum
amount of wages in at least two of the four calendar quarters preceding the claim, being
available and physically able to work, and actively seeking work and documenting the job
contacts made for submission to the state unemployment authorities. In addition, a worker may
be disqualified from receiving benefits for voluntarily leaving the last employer without good
cause connected with the work or being discharged by the last employer for misconduct or poor
performance. It is, therefore, important for Census supervisors to adequately document when a
worker leaves voluntarily or if a worker is terminated for misconduct or poor performance
because, under such circumstances, the worker would be ineligible to receive unemployment
benefits.


        4
          We only reviewed the files for employees already terminated by LCO management. We did not try to
determine whether there were other employees who should have been terminated for poor performance or
misconduct, but were not. We also did not determine whether the employees who were terminated should have
been terminated.

                                                     3
U.S. Department of Commerce                                                       Final Report IPE-13212
Office of Inspector General                                                               September 2000

Decennial-related unemployment costs were $64 million for the 1990 census, costs that were
borne entirely by the federal government. To determine whether these costs could be reduced in
future decennial operations, in 1991 and 1992, Commerce’s Office of Human Resources
Management performed performance management reviews of unemployment compensation for
temporary employees from the 1990 decennial. These reviews concluded that invalid
unemployment compensation claims were paid due to improper personnel management
procedures. In particular, the reviews found that Census supervisors did not always adequately
document personnel removal actions for temporary decennial employees who were separated for
cause, quit voluntarily, or were unavailable for work.

Because of the 1990 decennial personnel management problems identified by the Office of
Human Resources Management, the OIG found that “potentially millions of dollars in savings
would result from having tighter management control” in the area of separation and removal
documentation relating to temporary decennial census workers .5 The OIG, in a 1994 report,
recommended that the Census Bureau (1) develop appropriate guidelines for implementing, and
provide the necessary resources to efficiently manage, the personnel procedures associated with
the termination of 2000 decennial census temporary workers, and (2) ensure that future invalid
decennial unemployment compensation claims can be appealed by documenting removal actions
and making supervisors available to the Office of Human Resources Management to help in the
appeal process when necessary. In response to the OIG’s concerns for the 2000 decennial, the
bureau created two new forms: form D-282, which allows for quick documentation of a
performance problem with a temporary decennial employee, and form D-283, which allows for
quick recording of when an employee is terminated for cause.

In 1998, the OIG reviewed the policies and procedures for the management of unemployment
compensation for the 2000 decennial and reported that they “appear adequate.”6 However, in
this same report covering the Columbia, South Carolina, dress rehearsal, the OIG found that
additional management attention was warranted in order to better comply with the policies and
procedures. For example, personnel files for a random sample of 30 separated employees
showed that 9 were reported as terminated for poor performance or conduct. However, the OIG
found that four of the nine personnel files had documentation problems, including forms D-282
and/or D-283 not always being used when appropriate.




        5
           Unemployment Compensation and the 2000 Decennial Census, Department of Commerce Office of
Inspector General, IRM-4593, September 1994.
        6
          Bureau of the Census: Columbia Dress Rehearsal Identifies Needed Improvements in Personnel
Administration, Department of Commerce Office of Inspector General, ATL-11050-8-0001, September 1998.

                                                    4
U.S. Department of Commerce                                               Final Report IPE-13212
Office of Inspector General                                                       September 2000

DOCUMENTATION OF TERMINATIONS FOR CAUSE HAS GREATLY IMPROVED
SINCE 1990 DECENNIAL, BUT MORE VIGILANCE IS REQUIRED TO ENSURE
DOCUMENTATION IS PROPERLY COMPLETED

We found that, in general, the Census LCOs we visited were adequately documenting
terminations for cause during the 2000 decennial. For the 16 LCOs reviewed, we found that the
form D-283 was being filled out for nearly every employee terminated for cause. We also found
that the form D-282 was usually completed and included a description of the unsatisfactory
performance or misconduct and the remedies that the supervisor attempted, such as retraining or
putting the employee on notice concerning the unacceptable performance. We should note that a
form D-282 is not required in all cases. For example, egregious misconduct or performance
problems can result in immediate termination, requiring only that a form D-283 be completed.
However, the vast majority of the D-283 forms that we reviewed were also accompanied by a
D-282 form explaining either prior performance problems or more details concerning the incident
that led to the termination.

We also found that temporary decennial employees with misconduct or performance problems
were being terminated promptly. The problem employees were usually suspended from work the
same day or the next day, and then terminated within a few days. Such swift action is key to
ensuring that problematic workers do not inadvertently remain on Census’s rolls, thus making it
more likely that they would eventually be terminated for lack of work (rather than misconduct or
poor performance), or their appointment be allowed to expire. Either of these two designations
would make them eligible for unemployment compensation.

However, we also found that more vigilance is required to ensure that separation documentation
is properly completed. For example, some dates on the D-283 forms we reviewed were
inaccurate or were missing altogether and, in other cases, a form D-283 referred to further
documentation being attached, but the documentation was not in the file.

But, more importantly, in nine LCOs that we visited (Waldorf, Seattle, Everett, Denver, Aurora,
East Los Angeles/Monterey Park, Santa Ana, Commerce, and Queens Northwest), we found that
some Disciplinary Adverse Action Files for personnel separated for unsatisfactory performance
or misconduct did not contain a form D-283, as required (see Table 1 below). For the other seven
LCOs we visited (Annapolis, Fairfax, Los Angeles, Compton, Long Beach, Forest Park, and
Newark), a form D-283 was present for each employee terminated for cause.




                                               5
U.S. Department of Commerce                                                         Final Report IPE-13212
Office of Inspector General                                                                 September 2000

Table 1: Number of Files Missing Form D-283
                LCO                   Number of Termination                   Number Lacking
                                         Files Reviewed                         Form D-283
            Waldorf, MD                            56                                   9
             Seattle, WA                           39                                   4
             Everett, WA                           45                                   4
             Denver, CO                            47                                   7
             Aurora, CO                            23                                   2

       East Los Angeles/
       Monterey Park, CA                           52                                   5

            Santa Ana, CA                          4                                    1
            Commerce, CA                           28                                   5

     Queens Northwest, NY                          84                                   4


Probably the most troubling case occurred in the Waldorf LCO, where nine workers initially
categorized as being terminated for poor performance were later recategorized to being
terminated due to lack of work. This change was made in June 2000 because a form D-283 had
not been completed for the terminations, as required, and before our visit to the LCO, the files
were reviewed to ensure that all the documentation was in order. Per Census procedures, this
was the correct action to take, once it was clear that the necessary documentation was missing,
but we have concerns that approximately 16 percent of terminations for cause in the Waldorf
LCO were not adequately documented using a form D-283. Waldorf LCO managers were
unsure why the form D-283 was not promptly filled out for these nine cases, but they speculated
that a heavy workload and competing priorities were likely to blame.

For the Seattle LCO, our review of 39 files for workers terminated for cause revealed that 4 files
lacked a form D-283. Although there were D-255 (Information-Communication) forms7
contained in three files, and a written note in the other file, explaining the reason for
recommending termination for cause, a form D-283 was not filled out as required. And, in


        7
           D-255 (Information-Communication) forms are used by one employee of the bureau to communicate, in
writing, with another employee.

                                                       6
U.S. Department of Commerce                                                             Final Report IPE-13212
Office of Inspector General                                                                     September 2000

Everett, 4 out of 45 files did not contain a form D-283. For both of these LCOs, as in Waldorf,
the cognizant Regional Census Center directed the LCO to recategorize the workers from
terminated for cause to terminated due to lack of work because the form D-283 had not been
completed. Finally, in Denver, Aurora, East Los Angeles/Monterey Park, Santa Ana, Commerce,
and Queens Northwest, 24 of 238 termination files reviewed lacked a form D-283.8

Thus, in the case of all 41 workers for which a form D-283 was not completed, the Census
Bureau will likely be required to pay unemployment benefits, should the workers apply, because
the proper paperwork was not completed. Again, we reiterate that the bureau has improved its
performance greatly in this area since the 1990 decennial. However, we believe, given our
findings, that there is still room for improvement.




        8
            One of the two problematic Disciplinary Adverse Action Files in the Aurora LCO actually could not be
located, despite a thorough search by the LCO and the Regional Census Center. Because we were not able to review
the file, we categorized it as missing a form D-283.

                                                        7
U.S. Department of Commerce                                                  Final Report IPE-13212
Office of Inspector General                                                          September 2000

RECOMMENDATION

For any additional terminations for cause made during the current decennial fieldwork, LCO
managers should be reminded to ensure that all information is correctly entered onto D-282 and
D-283 forms and that all supporting documentation is available with the files. This will ensure
that the bureau can support its refusal of unemployment compensation for employees terminated
for cause.



In responding to our draft report, the Director, Bureau of the Census, stated that the bureau is in
agreement with our findings and recommendation. The bureau was encouraged by our finding
that nearly nine-out-of-ten cases had proper and sufficient documentation. However, the bureau
acknowledged that documentation can be improved, and they will continue to ensure that
managers and supervisors review the procedures regarding conduct and/or performance
documentation for disciplinary actions. To accomplish this, the bureau reissued two memoranda
outlining the requirements for documenting conduct and performance-based actions for various
categories of employees. In addition, headquarters staff reviewed performance and conduct
procedures at a conference held with the Assistant Regional Census Managers, Administrative
Supervisors, and other support staff earlier this year. We are satisfied that these actions meet the
intent of our recommendation.


Attachment

cc:    Robert J. Shapiro, Under Secretary for Economic Affairs
       Mark M. Taylor, Assistant Division Chief of Administration
       Harold E. Hayes Jr., PAMS/ADAMS Branch Chief
       Pat Boteler, Audit Liaison




                                                 8
Attachment
